No. 20-__
IN THE

~upreme Qtourt of tbe Wniteb ~tates
THE NORTH AMERICAN COAL CORPORATION,

Petitioner,
V.

U.S. ENVIRONMENTAL PROTECTION AGENCY AND
MICHAEL REGAN, ADMINISTRATOR OF THE U.S.
ENVIRONMENTAL PROTECTION AGENCY,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Petition
for Writ of Certiorari in The North American Coal Corporation v. U.S. Environmental

Protection Agency, No. 20-__ , complies with the word limitations, as it contains
8,832 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: April 30, 2021

